December 17, 2004
Report No. 05-001


The FDIC’s Local Telecommunications
Service




       EVALUATION REPORT
                                                                                                   Report No. 05-001
                                                                                                     December 2004


                                    The FDIC’s Local Telecommunications Service
                                    Results of Audit

                                    We concluded that DIRM and DOA should reconsider existing procurement
                                    options to ensure that the FDIC obtains the best value for local
                                    telecommunications service in its headquarters, regional, and field locations.
Purpose of Audit
                                    The FDIC has monthly service agreements with various regional
                                    telecommunications carriers nationwide that should be competed and reviewed
A telecommunications                for potential consolidation. Market surveillance needs to be updated to fully
program should be cost-             understand procurement options available to the FDIC. DIRM has prepared
effective and responsive to the     Statements of Work (SOW) for the regional offices and Virginia Square to
Corporation’s business needs.       compete contract award for local calling service. The SOWs are being reviewed
The Federal Deposit Insurance       by DOA’s Acquisition Services Branch (ASB). In addition, DIRM has begun
Corporation (FDIC) maintains        discussions with the General Services Administration (GSA) regarding
month-to-month local calling        contracting options and telecommunication programs available to the FDIC.
service agreements for all          DIRM personnel indicated that the FDIC could reduce monthly local
FDIC locations. Historically,       telecommunications costs by about 10 to 25 percent by:
these service agreements have
been treated as utility contracts       •   entering into long-term service agreements,
and have not been subject to            •   competing individual contracts with multiple offerors, and
competitive award. FDIC                 •   evaluating local telecommunications programs offered by GSA.
receives about 64 local
telephone bills each month.         Based on an annual budget of $1.3 million for local calling plans, the FDIC has
                                    the potential to save about $130,000 to $325,000 per year. The FDIC may also
The Division of Information         realize process efficiencies by consolidating local telecommunications billings.
and Resources Management
(DIRM) performed market             We recommended that DIRM, in conjunction with DOA, implement a strategy
research and discussed              for local telecommunications service that includes:
procurement options for local
calling service plans with the          •   working with ASB personnel to review all contracting options available
Division of Administration                  to the FDIC;
(DOA) in 2003, but ultimately           •   performing market research and surveillance in the commercial
did not implement changes to                marketplace, including contacting GSA;
the local telecommunications
                                        •   comparing the FDIC’s current monthly local calling rates for
program. In June 2004, DIRM
                                            headquarters, field, and regional locations with rates obtainable through
suggested that the Office of
                                            (a) long-term contracts such as 3 to 5 years, (b) competitive bids for
Inspector General (OIG)
                                            local service where two or more service providers offer service, and
evaluate the program.
                                            (c) GSA’s local service plans that are available to the FDIC. The
                                            comparison should also consider potential savings from consolidating
Our evaluation objective was
                                            invoice processing for telecommunications services.
to assess whether the FDIC is
procuring local
                                    FDIC management agreed with the recommendation. The report identified funds
telecommunications service
                                    put to better use of $390,000 to reflect recurring savings over a 3-year period
agreements that offer the best
                                    (i.e., $130,000 x 3) to be reported in the OIG’s next Semiannual Report to the
value to the Corporation.
                                    Congress. The FDIC concluded that projecting this amount was premature and
                                    could neither agree nor disagree with the OIG estimate at this time. We will
To view the full report, go to      determine the actual funds put to better use, if any, through our corrective action
www.fdicig.gov/2005reports.asp      closure process.
Federal Deposit Insurance Corporation                                                                    Office of Audits
801 17th Street NW, Washington, DC 20434                                                    Office of Inspector General



DATE:                                  December 17, 2004

MEMORANDUM TO:                         Michael E. Bartell, Chief Information Officer and Director
                                       Division of Information Resources Management


FROM:                                  Russell A. Rau [Electronically produced version; original signed by Russell Rau]
                                       Assistant Inspector General for Audits

SUBJECT:                               The FDIC’s Local Telecommunications Service
                                       Report No. 05-001


This report presents the results of our evaluation of the Federal Deposit Insurance Corporation’s
(FDIC) local telecommunications service program. The evaluation focused on local
telecommunications service agreements at the FDIC’s headquarters, regional, and field offices.
Specifically, the objective of this evaluation was to assess whether the FDIC is procuring local
telecommunications service agreements that offer the best value to the Corporation. Details on
our objective, scope, and methodology are presented in Appendix I.


BACKGROUND

A telecommunications program should be cost-effective and responsive to the Corporation’s
business needs, ensure that equipment with current technology is acquired and maintained, and
employ safeguards to protect data. The FDIC budgeted $1.3 million for local calling service for
2004. The FDIC has month-to-month local calling service agreements for all headquarters,
regional, and field offices. The FDIC has one provider for local calling service at its
Washington, D.C., and Virginia Square locations. For regional and field offices, the FDIC has
13 providers for local calling service. The FDIC has contracted with Data Net Systems, which
provides telecommunications related services for the FDIC. According to DIRM, one of the
responsibilities of Data Net Systems is to review the 64 local phone bills that the FDIC receives
each month to ensure that all charges are correct and in accordance with agreements. DIRM uses
payment authorization vouchers (PAVs) as allowed by FDIC’s Acquisition Policy Manual, to
pay for local telecommunication service billings.1

The Division of Information Resources Management (DIRM) performed market research and
discussed procurement options for local calling service plans with Division of Administration
(DOA) personnel in 2003. DIRM proposed several options to DOA, including entering into 2-to
5-year contracts and discussed issues such as competing local telecommunications agreements to

1
  PAVs may be used for certain non-procurement administrative-related expenses, including utilities and local
telephone services. PAVs are issued by FDIC organizational units and do not go through the normal invoice
process.
obtain the best value for the Corporation, and potential savings available under GSA schedule
contracts. DIRM did not enter into long-term agreements at that time, primarily because FDIC
acquisition policies would not allow for the continued use of PAVs with formal contract
agreements.

During a June 2004 evaluation planning meeting, DIRM suggested that our office evaluate the
FDIC’s local telecommunications program. DIRM and DOA resumed work on implementing
procurement options concurrent with our review.


RESULTS OF EVALUATION

DIRM and DOA should reconsider existing procurement options to ensure that the FDIC obtains
the best value for local telecommunications service in its headquarters, regional, and field
locations. The FDIC has monthly service agreements with various regional telecommunications
carriers nationwide that should be reviewed for potential consolidation. Historically, these
service agreements have been treated as utility contracts and have not been subject to
competitive award. Market surveillance needs to be updated to fully understand procurement
options available to the FDIC. The FDIC’s Acquisition Policy Manual (APM) requires DIRM
and DOA to work as a team and to make efforts to obtain the best value for the Corporation in
procuring goods and services while achieving adequate competition. DIRM has prepared
Statements of Work (SOW) for regional offices and Virginia Square to compete contract award
for local calling service. The SOWs are being reviewed by DOA’s Acquisition Services Branch
(ASB). In addition, DIRM has begun discussions with the General Services Administration
(GSA) regarding contracting options and telecommunication programs available to the FDIC.
DIRM personnel indicated that the FDIC could reduce monthly local telecommunications costs
by about 10 to 25 percent2 by:

•     entering into long-term service agreements,
•     competing individual contracts with multiple offerors, and
•     evaluating local telecommunications programs offered by GSA.

Based on an annual budget of $1.3 million for local calling plans, the FDIC has the potential to
save about $130,000 to $325,000 per year. The FDIC may also realize process efficiencies by
consolidating local telecommunications billings.


Applicable APM Requirements

DIRM and DOA must follow the FDIC’s APM when contracting for local telecommunications
service. The APM states that the participants in the acquisition process must work together as a
team, are empowered to make decisions within their area of responsibility, and exercise personal
initiative and sound business judgment in providing goods or services at the “best value” to meet
a program office needs. The acquisition process is based on the following guiding principles:

2
    Internal DIRM e-mail dated April 11, 2003, subject, Multi-year Contract for Local Telephone Service.


                                                          2
(1) attaining best value in award decisions, (2) enhancing acquisition planning and oversight
management, (3) promoting fair and consistent treatment of offerors, and (4) providing outreach
for socio-economic programs.

The APM also provides guidance for conducting market research and market surveillance.
Market research is the systematic, objective collection and analysis of general data to obtain
information and knowledge about availability and types of goods or services in the commercial
marketplace. Market research is performed by the program office to stay current with the
industry, to identify prospective offerors, and to ensure that existing pricing is competitive. For
planned procurements, the program office must first contact the contracting officer who provides
appropriate guidance for performing market research. Market surveillance is a method of market
research and is an ongoing process of reviewing information about market trends, new
developments, products, services, and technical features. Market surveillance is conducted as
part of routine business when there is no planned or future procurement action. The program
office may perform market surveillance without notification or assistance from the contracting
officer.


Long-Term Service Agreements

The FDIC may be able to reduce its local telecommunications costs by entering into long-term
service agreements. The FDIC has monthly service agreements for all headquarters, field, and
regional offices for local calling service. The FDIC pays $.096 per message unit in Virginia
Square and $.085 per message unit in Washington, D.C. A message unit is equivalent to a single
telephone call. In May 2004, the FDIC paid $22,120 for local calling service at its 8 regional
and area offices and $26,003 for local calling service at its 84 field offices.

As discussed earlier, during 2003, DIRM researched the possibility of entering into longer term
agreements, including GSA local service offerings. However, DIRM discontinued its research
upon discovering that FDIC’s acquisition policies would not allow for the payment of long-term
contract billings using PAVs.

Based on our discussions with GSA officials and DIRM personnel responsible for
telecommunications services, if the FDIC agrees to long-term contracts, for example 3- to 5-year
contracts, the message rates may be more cost-effective. However, DIRM should ensure that
long-term agreements are flexible and include clauses to guarantee that the FDIC continues to
receive competitive rates and current technology during the contract period.


Competition for Service Contracts

None of the FDIC’s current agreements with local service providers have been competed.
Competing a local calling service contract to multiple providers would help to ensure that the
FDIC receives the best rates for its local calling needs. Some local areas may have a limited
number of providers to compete for the local service contract; however, many of the FDIC office
locations have multiple providers that could compete to provide telecommunications service.



                                                 3
DIRM performed some market research in 2003. That research included assessing the merits of
competition and the risks of awarding to the lowest cost vendor (e.g., contracting with a
reputable, established service provider and preserving phone number portability). Concurrent
with our review, DIRM representatives resumed working with DOA to understand contracting
options and have contacted GSA representatives to obtain more information about GSA
offerings.

DIRM indicated it had prepared SOWs for competing local telecommunications service for the
Virginia Square and FDIC regional offices. The FDIC is in the process of building new office
space at Virginia Square for its employees and will need about 1,600 additional phone lines.
DIRM personnel anticipate that at least five providers will compete for the contract at Virginia
Square. DIRM stated that competing local telecommunications service at Virginia Square and
the FDIC regional offices is the first step in improving the FDIC’s rates for local
telecommunications service. However, FDIC will delay competing local telecommunications
service for the Washington, D.C., locations until the Corporation can determine service
requirements for employees that are moving to Virginia Square.


GSA Telecommunications Programs

The FDIC should also reconsider local telecommunications programs available from GSA. GSA
has obtained telecommunications services, including long-distance and local telephone services
for use by federal agencies through contracts with the private industry.

•   The Washington Interagency Telephone System (WITS) 2001 program offers competitive
    rates for local calling service in the Washington, D.C., metropolitan area for all government
    agencies. This contract could be advantageous if the FDIC makes many interagency calls
    because there is no message unit charge for in-network calls (those to other agencies
    participating in WITS 2001). For off-network calls, the per message unit price range from
    $.06 to $.09 per call in the metropolitan Washington, D.C., area.

•   GSA initiated its “Metropolitan Area Acquisition” (MAA) program to take advantage of the
    changes brought about by the Telecommunications Act of 1996.3 The MAA program was
    intended to replace existing GSA contracts in selected metropolitan locations; to achieve
    immediate, substantial, and sustained price reductions for local telecommunications for
    agencies; to expand agencies’ choices of high-quality services; and to encourage cross-
    agency sharing of resources. Although GSA might not be able to provide local calling
    service under its existing plans to all FDIC locations, more plan acquisitions are forthcoming.
    Specifically, GSA is in the process of expanding the MAA program to additional areas
    (including Puerto Rico where the FDIC has a field office) and could include specific FDIC
    locations, depending on the level of service needed by the FDIC.

Another issue that the FDIC needs to factor into its analysis of procurement options is billing
consolidation. GSA can consolidate billings for the FDIC to reduce the costs of processing
3
  The Telecommunications Act was designed to open up the local markets to competition and to create incentives for
the investment in and deployment of advanced telecommunications services.


                                                        4
payments for the 64 invoices that the FDIC currently receives. The FDIC’s costs for reviewing
and paying local calling service bills should be considered when analyzing local calling plans for
FDIC locations. As discussed earlier, a contractor processes monthly billings for the FDIC.
Because this contractor also performs other telecommunication and information
technology-related functions, DIRM could not readily estimate the portion of contract costs
attributable to processing invoices for local telecommunications services.

However, a DIRM representative indicated that the contractor is paid $43.08 per hour and spends
roughly one-third of her time processing local telecommunication invoices, including checking
invoices for new or unusual charges, validating all entries, and seeking and tracking credits for
inappropriate charges. Projecting this amount for a year yields $29,570 ($43.08 x 2,080 (hours
in a work year) x .33). DIRM officials indicated that the contractor had identified several
hundred thousand dollars in overbillings which more than offset the cost of the contractor staff.
Regardless, invoice consolidation may allow DIRM to make better use of contractor resources.


Recommendation

We recommend that the Chief Information Officer and Director, DIRM, in conjunction with the
Director, DOA, implement a strategy for local telecommunications service that includes:

   •   working with ASB personnel to review all contracting options available to the FDIC;

   •   performing market research and surveillance in the commercial marketplace along with
       contacting GSA officials to discuss and review local calling plans and rates that are
       available to the FDIC through the GSA at sites that GSA has under contract; and

   •   comparing the FDIC’s current monthly local calling rates for headquarters, field, and
       regional locations with rates obtainable through (a) long-term contracts such as 3 to
       5 years, (b) competitive bids for local service where two or more service providers offer
       service, and (c) GSA’s local service plans that are available to the FDIC. The
       comparison should also consider potential savings from consolidating invoice processing
       for telecommunications services.

As discussed earlier, we estimated that the FDIC could save $130,000 to $325,000 annually by
entering into long-term, competed service agreements. Accordingly, we will report funds put to
better use of $390,000 to reflect recurring savings over a 3-year period (i.e., $130,000 x 3) in our
next Semiannual Report to the Congress.




                                                 5
CORPORATION COMMENTS AND OIG EVALUATION

The CIO and Director, DIRM, and the Director, DOA, provided a written response on
December 15, 2004 to a draft of this report. Their response is presented in its entirety in
Appendix II.

DIRM and DOA agreed with our recommendation. DIRM and DOA agreed to complete work
related to competing local telecommunication service to identify more cost-effective options,
where applicable, and implement appropriate contract revisions by December 31, 2005 for local
calling plans. In addition, DIRM stated that it completed market research and will work on
implementing procurement strategies and options for the telecommunications market. These
options include longer term agreements, such as 2-5 year agreements; GSA local service plans
that are available to the FDIC; and competitive bids for local service where two or more service
providers offer service. DIRM will also evaluate consolidated billing, utilizing GSA’s MAA
program and will work with telecommunication carriers to further consolidate billing. However,
DIRM and DOA indicated that further bill consolidation may not be possible at this time due to
disparate billing systems of telecommunication carriers when covering large geographical areas.

DIRM and DOA also stated that although they agreed with the recommendation, they believed
that projecting the potential cost savings is premature stating:

       The amount of the savings generated, if any, can only be determined once the actions
       undertaken are in place. As such, we cannot agree or disagree with the OIG estimate at
       this time. In addition, it should be noted that the potential cost savings may be difficult to
       ascertain. The competitive environment and deregulation in the industry has resulted in
       extreme variability in pricing that has resulted in a multitude of options offered through
       bundled services. As a result, if asked to determine the specific savings achieved,
       identification of such savings may be difficult and blurred because of the inability to
       isolate the local telecommunications service costs as industry business changes occur.

We will determine the actual funds put to better use, if any, through our corrective action closure
process.

DIRM and DOA also had general comments regarding specific language used in the draft report,
and we have addressed those concerns in the final report, where appropriate.

Overall, management’s proposed actions are sufficient to resolve the recommendation.
However, the recommendation will remain undispositioned and open for reporting purposes until
we have determined that the agreed-to corrective actions have been completed and are effective.
Appendix III presents a summary of DIRM’s and DOA’s response to our recommendation.




                                                 6
                                                                                APPENDIX I



                     OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our evaluation was to assess whether the FDIC is procuring local
telecommunications service agreements that offer the best value to the Corporation. In
performing our work, we interviewed officials from DIRM’s Telecommunication’s Section and
DOA’s ASB. We also spoke with officials from GSA’s Federal Technology Service and MAA
program.

We reviewed monthly local telecommunications service charges for May 2004 for the FDIC
field locations and obtained comparative GSA pricing when available. We did not evaluate
whether invoice charges complied with the FDIC’s existing service agreements.

We also reviewed relevant sections of the APM and consulted with OIG’s legal counsel to obtain
an understanding of the statutory and the regulatory framework for local telecommunication
services.

We conducted our field work from July through September 2004 in accordance with generally
accepted government auditing standards.




                                              7
Appendix II
    APPENDIX II




9
     APPENDIX II




10
     APPENDIX II




11
                                                                                                                                           APPENDIX III




                                         MANAGEMENT RESPONSE TO THE RECOMMENDATION

This table presents the management response made on the recommendation in our report and the status of the recommendation as of the date
of report issuance. The information in this table is based on management’s written response to our report.


 Rec.                                                                    Expected           Monetary         Resolved:a       Dispositioned:b          Open
Number         Corrective Action: Taken or Planned/Status             Completion Date       Benefits         Yes or No          Yes or No            or Closedc

      1       DIRM and DOA responded that:                             December 2005        $130,000 -           Yes                 No                Open
                                                                                             $325,000
              •    DIRM and DOA plan to complete                                            (annually)
                   competition of local service proposals,
                   which ASB has for review.

              •    DIRM has completed market research,
                   including entering into longer term
                   agreements and researching GSA local
                   service options.

              •    DIRM will evaluate possibilities for
                   consolidating billing.


a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
                   as management provides an amount.
b
  Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved
through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
recommendation.
c
    Once the OIG dispositions the recommendation, it can then be closed.




                                                                              12
